IN THE
SUPREME COURT OF THE UNITED STATES

ROBERT FRANK MILLER,
Peti,tioner,
V.

UNITED STATES OF AMERICA,
Resporrdeiut.

MOTION FOR LEAVE TO pROcEED IIV FORfl44 fz4upzrals
The petitioner asks leave to file the attached petition for a writ of
certiorari without prepayment of costs and to proceed £7t /ormcL pciz/peris.

Please check the appropriate boxes:

[ x ] Petitioner has previously been granted leave to proceed jrL /ormc}
pc!L4perfs in the following court(s):

United States District Court for the District of Columbia
United States Court of ADDeals for the District of Columbia Circuit

I ] Petitioner has not previously been granted leave to proceed £7? /ormc}
pcbaperjs in any other court.
I
hereto.

] Petitioner's affidavit or declaration in support of this motion is attached

[

] Petitioner's affidavit or declaration is not attached because the court

below appointed counsel in the current proceeding, and: .....
I x ] The appointment was made under the following provision of law:
the Criminal Justice Act,18 U.S.C. a 3006A

[

] a copy of the order of appointment is appended.

Or

